                    NATIONAL ENDOWMENT FOR THE ARTS
                    OFFICE OF INSPECTOR GENERAL




      FINANCIAL MANAGEMENT SYSTEM &
          COMPLIANCE EVALUATION

                                          OF THE

               LOS REYES de ALBUQUERQUE
                    FOUNDATION, INC.
                                   Albuquerque, NM

                             REPORT NO. SCE-09-01

                                     October 2, 2008



                           REPORT RELEASE RESTRICTION
This report may not be released to anyone outside of the National Endowment for the Arts (NEA)
without the approval of the NEA Office of Inspector General.

Information contained in this report may be confidential. The restrictions of 18 USC 1905 should be
considered before this information is released to the public.

Furthermore, information contained in this report should not be used for purposes other than those
intended without prior consultation with the NEA Office of Inspector General regarding its
applicability.
                                INTRODUCTION

BACKGROUND

Los Reyes de Albuquerque Foundation, Inc. (Foundation) is a traditional music group
comprised of four to eight singers and musicians of Nuevomexicano music. In addition
to its annual public performance schedule, the group raises money through its foundation
to present musical/narrative presentations free of charge at senior centers, nursing homes,
homeless shelters and day care centers throughout rural and urban New Mexico.

OBJECTIVE AND SCOPE

The objective of this financial management system and compliance evaluation by the
National Endowment for the Arts (NEA) Office of Inspector General (OIG) is to
determine whether the organization’s financial management system and recordkeeping
complies with the requirements established by the Office of Management and Budget
(OMB) and NEA’s General Terms and Conditions for Grants and Cooperative
Agreements to Organizations (General Terms). The evaluation was conducted in
accordance with the President’s Council on Integrity and Efficiency Quality Standards
for Inspections, as applicable.

PRIOR AUDIT COVERAGE

During the past five years, the NEA Office of Inspector General has not issued any audit
reports on Federal grants awarded to the Foundation. As of our site visit on July 28,
2008, the most recent report on the Foundation’s financial position was issued on July 22,
2008. The report was a compilation of the balance sheet and the related income
statement for the period ended December 31, 2007. It was compiled by Taxpayer
Defense, Inc., an accounting firm, which indicated that they had not audited nor reviewed
the statements and accordingly no opinion was expressed. In addition, they indicated that
they were not independent with regards to the Foundation. We reviewed the
Foundation’s 2007 IRS Form 990 and found no issues of concern regarding Federal
grants. The Foundation was not subject to the audit requirements of OMB Circular A-
133.



                       RESULTS OF EVALUATION
Our evaluation concluded that the Foundation inaccurately reported expenditures on its
Financial Status Report (FSR). We also found that the Foundation did not maintain
proper documentation for in-kind expenses and did not have a Section 504 self-evaluation
on file. Details are presented in the following narrative.




                                             2
REPORTED EXPENDITURES

For selected Grant No. 05-5500-7044, the Foundation inaccurately reported expenditures
on its FSR. While onsite, we were able to review books and ledgers, invoices and other
supporting documentation related to the grant. However, we were not able to reconcile
the amount reported on the FSR. The reason for this reconciliation problem was that the
Foundation reported the amount of deposits from its monthly bank statements instead of
actual costs. By reconstructing the costs with the help of the Foundation’s Executive
Director, we determined that total allowable expenditures of $45,773 were a more
accurate reflection of what the actual costs were under the grant. The Foundation
reported total outlays as $78,947. As a result, reported expenditures were overstated by
$33,174. However, even with the overstatement, the Foundation had enough expenses to
meet its matching requirement. Therefore, no refund would be due the NEA.

As stated in NEA’s Instructions for Completing the Financial Status Report:

       Indicate total actual project outlays (total funds spent minus any refunds) within the
       period of support indicated in your award letter or as amended. Any indirect costs
       from line 11(d) and/or in-kind contributions applied to and approved for the project
       should also be included here. Note: total actual costs will likely differ from the
       amount anticipated in the approved budget.

We believe that in the future a more accurate reflection of actual costs would occur if the
Executive Director and accountant work together in preparing the FSR.

IN-KIND COSTS

The Foundation also included in-kind costs as part in its reported total outlays in the
amount of $22,480. However, the Foundation was only able to provide support for in-
kind costs in the amount of $6,947, which is included in the adjusted allowable
expenditures above. The Foundation did not maintain an explanation of the basis for the
valuation of each item or any supporting documentation for other in-kind costs. The
NEA Instructions for In-Kind (Third-Party) Contributions state:

       “If in-kind, third-party (i.e., not the awardee) contributions or donations are
       included as income in your approved project budget, they must also be included in
       the project’s total direct costs and reflected as such in your accounting records.”

For the ongoing and future grants, we are recommending that procedures be implemented
to ensure that the Foundation maintains supporting documentation for all expenses and
that in-kind contributions are adequately supported by documentation from the
contributor.




                                             3
INTERNAL CONTROL

We believe that internal controls at the Foundation could be strengthened. The
Foundation has difficulty providing for adequate segregation of duties because the
Executive Director is the only full-time employee. The Executive Director had been
responsible for most of the revenue and expenditure functions, including maintaining
supporting documentation. Currently, the Foundation is working with its accountant to
improve internal controls and record expenses more accurately. The accountant will
record expenses, reconcile bank statements and maintain supporting documentation.
However, since the accountant is the Executive Director’s daughter, and therefore is not
independent, we recommend that the Foundation implement procedures to further
strengthen internal controls by developing adequate safeguards in its financial
management system. One improvement could be to have financial statements, expenses
and reconciliations reviewed periodically by a third party, such as a member of the Board
of Directors or volunteer, who is familiar with accounting matters.

SECTION 504 SELF-EVALUATION

The Foundation did not have the required Section 504 self-evaluation on file. As noted in
NEA’s General Terms, “A Section 504 self-evaluation must be on file at your
organization.” A Section 504 Self-Evaluation Workbook, which can be completed online,
is available at www.arts.gov/about/504Workbook.html.

We recommended that the Foundation conduct a Section 504 self-evaluation. The
Foundation did complete and submit a Section 504 self-evaluation prior to the issuance of
this report. Therefore, no further action on this finding is necessary.

EXIT CONFERENCE
An exit conference was held with the Foundation officials on July 28, 2008. The
Foundation official concurred with our findings and recommendations. (As noted, the
Foundation did complete the Section 504 self-evaluation prior to the issuance of this
report.)



                           RECOMMENDATIONS
We recommend that the Foundation:

   1. Implement procedures to ensure that grants costs are accurately reported on the
      final Financial Status Reports. Those procedures should ensure that the preparers
      of the FSRs are familiar with the costs principles of OMB Circular A-122.

   2. Implement procedures to ensure the Foundation maintains supporting
      documentation for all expenses.



                                            4
3. Implement procedures to ensure that an explanation of the basis for the valuation
   of each in-kind item and any supporting documentation are maintained.

4. Implement procedures to strengthen internal controls to ensure adequate
   segregation of duties and safeguards in its financial management system.




                                        5
